HHS/OIG-Audit--"Use of Recipient Capability Audits by the Public Health Service During Fiscal Year 1989, (A-04-90-04012)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Use of Recipient Capability Audits by the Public Health Service During Fiscal Year 1989," (A-04-90-04012)
June 18, 1992
Complete
Text of Report is available in PDF format (296 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report presents the results of our review of the use of recipient capability audits (RCAs) by the Public
Health Service during Fiscal Year 1989. We performed 66 RCAs covering proposed grant awards of $9.9 million. Based on the
results of the RCAs, the Centers for Disease Control denied funding to six organizations and instead awarded over $1 million
to other, more capable organizations. We recommended that the Public Health Service perform a greater number of financial
evaluations of organizations that are applying for grant funds and do not have prior experience in managing Federal projects,
and establish uniform policies and procedures for conducting such evaluations.